Audit
Report
  IMPLEMENTATION OF DOD PUBLIC KEY INFRASTRUCTURE
              POLICY AND PROCEDURES


Report No. D-2002-030                 December 28, 2001



             Office of the Inspector General
                 Department of Defense
         Additional Copies

         To obtain additional copies of this audit report, visit the Inspector General, DoD,
         Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
         Distribution Unit of the Audit Followup and Technical Support Directorate at
         (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

         Suggestions for Future Audits

         To suggest ideas for or to request future audits, contact the Audit Followup and
         Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
         fax (703) 604-8932. Ideas and requests can also be mailed to:

                           OAIG-AUD (ATTN: AFTS Audit Suggestions)
                            Inspector General, Department of Defense
                               400 Army Navy Drive (Room 801)
                                   Arlington, VA 22202-4704


         Defense Hotline

         To report fraud, waste, or abuse, contact the Defense Hotline by calling
         (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
         by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
         The identity of each writer and caller is fully protected.




Acronyms
ASD(C3I)              Assistant Secretary of Defense (Command, Control,
                         Communications and Intelligence)
CAC                   Common Access Card
CCA                   Clinger-Cohen Act
CIO                   Chief Information Officer
DEERS                 Defense Enrollment Eligibility Registration System
IA                    Information Assurance
IT                    Information Technology
PKE                   Public Key-Enabled
PKI                   Public Key Infrastructure
PMO                   Program Management Office
RAPIDS                Real-time Automated Personnel Identification System
                       Office of the Inspector General, DoD
Report No. D-2002-030                                           December 28, 2001
   (Project No. D2001AS-0008)



             Implementation of DoD Public Key Infrastructure
                          Policy and Procedures

                                Executive Summary

Introduction. Federal agencies, including DoD, are increasingly using the World
Wide Web and other Internet-based applications to provide on-line public access to
information and services as well as to improve internal business operations. However,
the potential for improvements in service delivery and productivity due to electronic
and Internet-based applications come with many of the security risks faced by existing
systems as well as new risks. To achieve information superiority in a highly
interconnected, shared-risk environment, DoD Information Assurance capabilities must
address the pervasiveness of information as a vital aspect of warfighting and business
operations. The Defense-in-Depth strategy is the technical strategy that underlies DoD
information assurance in which layers of defense are used to achieve security
objectives. One element of the Defense-in-Depth strategy is the use of a common,
integrated, interoperable DoD Public Key Infrastructure to enable security services at
multiple levels of assurance. As of October 2000, the funding allocation for the DoD
Public Key Infrastructure for FYs 2001 through 2005 was about $712 million.

Objectives. The overall objective was to evaluate the implementation and management
of Public Key Infrastructure within the DoD. Specifically, we evaluated the DoD
oversight of Public Key Infrastructure, coordination of Public Key Infrastructure
missions and pilot programs among the Services and DoD agencies, and compliance
with the Clinger-Cohen Act. We did not review the management control program
relating to the overall objective because DoD designated information assurance as a
systemic management control weakness in the FY 2000 Annual Statement of
Assurance.

Results. Although progress had been made in implementing Public Key Infrastructure,
DoD had not managed the DoD Public Key Infrastructure Program as an enterprise-
wide information technology investment. As a result, DoD will not be able to
adequately assess cost, performance, and schedule risks to Public Key Infrastructure
implementation and use those assessments to determine whether the Public Key
Infrastructure Program is cost-effectively meeting security requirements and user needs.
See the Finding section for details on the audit results.
Summary of Recommendations. We recommend that the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) develop and
implement oversight and management criteria for the Public Key Infrastructure
investment. We also recommend that the Director, Public Key Infrastructure Program,
develop an Information Technology Investment Management Plan for the DoD Public
Key Infrastructure Program that addresses performance measures for the Public Key
Infrastructure, a risk management plan, and DoD acquisition policy.

Management Comments. The Director, Information Assurance, provided a
consolidated response for the Office of the Assistant Secretary of Defense (Command,
Control, Communications and Intelligence) and the Director, DoD Public Key
Infrastructure Program Management Office. Both offices fully concurred with the
report finding and recommendations. Specifically, the Office of the Assistant Secretary
of Defense (Command, Control, Communications and Intelligence) agreed to develop
and implement oversight and management criteria for the DoD Public Key
Infrastructure investment in accordance with DoD Directive 5000.1, “The Defense
Acquisition System.” The Director, DoD Public Key Infrastructure Program
Management Office, agreed to develop an information technology Investment
Management Plan for the Public Key Infrastructure Program that, at a minimum,
addresses performance measures, a comprehensive risk management plan, and
application of DoD acquisition policy requirements. A discussion of the management
comments is in the Finding section of the report and the complete text is in the
Management Comments section.




                                           ii
Table of Contents

Executive Summary                                                            i


Introduction
     Background                                                              1
     Objectives                                                              4

Finding
     Status of the Implementation of the DoD
        Public Key Infrastructure Program                                    5

Appendixes
     A. Audit Process
          Scope                                                             12
          Methodology                                                       12
          Management Control Program Review                                 12
          Prior Coverage                                                    13
     B. Public Key Encryption                                               14
     C. Policy Memorandums Affecting the DoD Public Key
          Infrastructure Program                                            15
     D. Public Key Initiatives Initiatives That Are Not Controlled by the
          Program Management Office                                         17
     E. Report Distribution                                                 20


Management Comments
     Office of the Assistant Secretary of Defense (Command, Control,
          Communications, and Intelligence)                                 23
Introduction
            Federal agencies, including DoD, are increasingly using the World Wide Web
            and other Internet-based applications to provide on-line public access to
            information and services as well as to improve internal business operations.
            However, the potential for improvements in service delivery and productivity
            because of electronic and Internet-based applications come with new security
            risks and with the security risks already faced by existing systems.

            To achieve information superiority1 in a highly interconnected, shared-risk
            environment, DoD Information Assurance (IA) capabilities must address the
            pervasiveness of information as a vital aspect of warfighting and business
            operations. The Defense-in-Depth strategy is the technical strategy that
            underlies DoD IA in which layers of defense are used to achieve security
            objectives. That strategy recognizes the diversity of technologies, solutions,
            adversaries, and vulnerabilities that pervade our information systems and
            infrastructures. The strategy also recognizes that no single element can
            independently provide adequate assurance and that layers of defense at varying
            strengths and assurance levels can be deployed to provide multiple roadblocks
            between sensitive information systems and those internal and external
            adversaries who would try to exploit them. One element of the
            Defense-in-Depth strategy is the use of a common, integrated, interoperable
            Public Key Infrastructure (PKI) to enable security services at multiple levels of
            assurance.

Background
            Description of PKI. A PKI is a system of hardware, software, policies, and
            people that, when fully and properly implemented, can provide a suite of
            information security assurances that are important in protecting sensitive
            communications and transactions. Specifically, PKI refers to the framework and
            services that provide for generating, producing, distributing, controlling,
            revoking, recovering, and tracking public key certificates2 and their
            corresponding private keys. For PKI, key-pairs are generated by or for each
            user. Each key-pair comprises two keys (very large numbers, typically 150 to
            300 digits in length), which are mathematically linked in a very subtle way. For
            each key-pair, one is kept private and the other is made public. See Appendix B
            for a graphical example of how the key pairs for PKI can work.



1
    Information superiority is the capability to collect, process, and disseminate an uninterrupted flow of
     information while exploiting or denying an adversary’s ability to do the same.
2
    A certificate is a digital representation of information that binds the user’s identification with the user’s
    public key in a trusted manner. At a minimum, this information (1) identifies the certification authority
    issuing it, (2) names or identifies its user, (3) contains the user’s public key, (4) identifies its operational
    period, and (5) is digitally signed by the certification authority issuing it.
                                                          1
           Public Key technology is rapidly becoming the technology of choice to enable
           security services within systems. These security services include:

                   •    identification, which is a process that an information system uses to
                        recognize an entity; and authentication, which is a security measure
                        that is designed to establish the validity of a transmission, message,
                        or originator or a means of verifying an individual’s authorization to
                        receive specific categories of information;

                   •    data integrity, which means that data are unchanged from their
                        source and have not been accidentally or maliciously modified,
                        altered, or destroyed;

                   •    confidentiality, which means that the information is not disclosed to
                        unauthorized persons, processes, or devices; and

                   •    non-repudiation, which is the assurance that the sender of the data is
                        provided with proof of delivery and the recipient is provided with
                        proof of the sender’s identity, so that neither individual can later
                        deny having sent or received the data.

           DoD PKI Program. In April 1999, the Assistant Secretary of Defense
           (Command, Control, Communication, and Intelligence) [ASD(C3I)], assigned
           program management responsibility to the National Security Agency and
           assigned deputy program management responsibility to the Defense Information
           Systems Agency for the implementation of a PKI throughout DoD. In response,
           the National Security Agency and Defense Information Systems Agency
           established the DoD PKI Program Management Office (PMO) to ensure that the
           DoD PKI supports validated and endorsed Public Key-Enabled (PKE) systems
           and applications that meet the broad spectrum of DoD mission and business
           needs. As lead agencies for the DoD PKI Program, the National Security
           Agency and the Defense Information Systems Agency were responsible for
           coordinating PKI activities within DoD by defining and providing general
           implementation guidance. The PMO was responsible for identifying and
           coordinating DoD PKI requirements and addressing interoperability,
           compatibility, commonality, and standardization issues. In addition, the PMO
           was responsible for the development and publication of a comprehensive PKI
           architecture, for a PKI implementation and transition plan, and for resolution of
           programmatic issues. The DoD plans to use an open standards approach3 based
           on commercial products and services, while still maintaining appropriate levels
           of security.




3
    The DoD PKI is based on the use of commercial standards to the maximum extent feasible. DoD will
    ensure that its specifications are consistent with emerging commercial and National Institute of
    Standards and Technology Federal standards and will track new and evolving Internet standards to
    ensure that the most viable commercial standards are fully leveraged.
                                                    2
                  PKI Funding. As of October 2000, the DoD PKI budget for DoD was
           about $712 million for FYs 2001 through 2005. The PMO oversees spending of
           the $712 million, but each DoD Component manages its own portion of the
           $712 million. Funding for the PMO was about $1.4 million. The table below
           shows the allocation of PKI funding within DoD.

                               DoD PKI FYs 2001-2005 Funding Allocation
                                        as of October 16, 2000

                                   Component                              Amount (millions)

                    National Security Agency*                                   $134.00
                    Defense Information Systems Agency*                           72.90
                    Army                                                         140.20
                    Navy                                                         107.20
                    Air Force                                                    132.20
                    Marine Corps                                                  56.63
                    Defense Logistics Agency                                      25.00
                    Others                                                        43.50
                     Total                                                      $711.63

                         *Amounts do not include the $1.4 million for the PMO.

                   PKI Guidance. The Deputy Secretary of Defense and the ASD(C3I)
           issued several policy memorandums, which affected the evolution of the DoD
           PKI Program. See Appendix C for a chronology and discussion of the policy
           memorandums relative to the DoD PKI Program. On August 12, 2000, the
           ASD(C3I) issued policy memorandum, “Department of Defense (DoD) Public
           Key Infrastructure (PKI),” which updated DoD policies for the development and
           implementation of a DoD-wide PKI and aligned PKI activities and milestones
           with those of the DoD Common Access Card (CAC) Program. On
           November 10, 1999, the Deputy Secretary of Defense issued policy
           memorandum, “Smart Card Adoption and Implementation,” which directed the
           implementation of standard DoD smart card technology as a DoD-wide CAC.
           The Deputy Secretary also designated the CAC as the primary token4 platform
           for PKI certificates and directed that the CAC also operate as the standard
           identification card, building access card. The memorandum also mandated
           using the Defense Enrollment Eligibility Reporting System (DEERS)5
           infrastructure and the Real-time Automated Personnel Identification System
           (RAPIDS)6 to issue and maintain the CAC. Additionally, the Deputy Secretary
           of Defense authorized the DoD Chief Information Officer to modify the PKI
           guidance to incorporate and accommodate use of the CAC.

4
    A token is a device (floppy disk, Common Access Card, or smart card) that is used to protect and
    transport the private keys of a user.
5
    Defense Enrollment Eligibility Reporting System (DEERS) is a database, which contains status
    information on Uniformed Services members, their families, and DoD civilians.
6
    Real-time Automated Personnel Identification System (RAPIDS) is an automated, ID Card System for
    military, retired, and their families.
                                                      3
                  PKI Implementation. DoD had revised the schedule for PKI
            implementation based on requirements of the PKI guidance. The current
            implementation schedule is shown below.

                                            Implementation Schedule

                    Class 37 Registration Capability                                     December 2001
                    All DoD Personnel Issued Class 3 Certificates                        October 2002
                    All DoD Email Must be Digitally Signed
                     with a Class 3 Certificate                                          October 2002
                    Begin Issuing Class 4 Certificates                                   October 2002
                    Protection of Unclassified Mission Critical
                     Systems Must Migrate from Class 3 to Class 4                        December 2003


Objectives
            The overall objective was to evaluate the implementation and management of
            PKI within the DoD. Specifically, we evaluated DoD oversight of PKI,
            coordination of PKI missions and pilot programs among the Services and DoD
            agencies, and compliance with the requirements of the Clinger-Cohen Act. We
            did not review the management control program relating to the overall objective
            because DoD designated information assurance as a systemic management
            control weakness in the FY 2000 Annual Statement of Assurance. See
            Appendix A for a discussion of the audit scope and methodology.




7
    The level of assurance of a public key certificate is the degree of confidence in the binding of the
    identity to the public keys and privileges. DoD has identified the following assurance levels: Class 3 is
    for applications handling medium value information in a low to medium risk environment; Class 4 is for
    applications handling medium to high value information in a minimally protected environment.




                                                       4
           Status of the Implementation of the DoD
           Public Key Infrastructure Program
           Although progress had been made in implementing PKI within DoD, the
           PKI PMO had not managed the DoD PKI Program as a DoD enterprise-
           wide information technology (IT) investment. This condition occurred
           because the PMO had not:

                  •   developed a coordinated DoD-wide IT investment plan that
                      identified performance measures and managed risks that could
                      affect PKI implementation;

                  •   considered the PKI Program to be subject to DoD acquisition
                      policy, which requires a process to document and collectively
                      manage cost, performance, and schedule parameters for a
                      program investment; and

                  •   complied with the DoD implementation of the Clinger-Cohen
                      Act (CCA) for managing IT investments.

           Additionally, the DoD Chief Information Officer (CIO) had not
           developed or implemented oversight and management criteria for
           evaluating the PKI Program because it was designated only as a special
           interest initiative program. As a result, DoD will not be able to
           adequately assess cost, performance, and schedule risks to PKI
           implementation and use those assessments to determine whether the PKI
           Program is cost-effectively meeting security requirements and user
           needs.

Progress In Implementing the DoD PKI Program
    The PMO took action and made progress in implementing the PKI Program.
    Specifically, the PMO issued various management and operational documents,
    established working groups, provided periodic status briefs, and identified
    unfunded requirements.

    Management and Operational Documents. The PMO ensures that the
    management and planning documents provided for the PKI Program reflect
    Federal PKI requirements. Those documents included the “Public Key
    Infrastructure Roadmap for Department of Defense,” (PKI Roadmap),
    December 18, 2000; the “X.509 Certificate Policy for the United States
    Department of Defense” (X.509 Certificate Policy), November 13, 2000; and
    the “Public Key Infrastructure Implementation Plan for the Department of
    Defense” (PKI Implementation Plan), December 18, 2000, and are discussed
    below.



                                       5
                    The PKI Roadmap. The PKI Roadmap established the overall plan for
            the DoD PKI Program that outlined the strategy and timelines for the
            availability of PKI capabilities. The PKI Roadmap also defined how the
            DoD PKI would evolve into its final target architecture. The PMO reviewed
            and updated the PKI Roadmap, as appropriate, to reflect changes in direction or
            strategy.

                    The X.509 Certificate Policy. The PMO issued the X.509 Certificate
            Policy, which established the unified policy for creating and managing a
            Certification Authority and its related components. The Certificate Policy also
            defined how certificates will be created and managed and used with PKE
            applications.

                    The PKI Implementation Plan. The PKI Implementation provided for
            the phased implementation of a DoD-wide PKI and helped to coordinate PKI
            across the Services and among DoD activities. The PKI Implementation Plan
            documents how to implement the PKI Program and establishes the foundation
            for collecting information on the status of PKI.

            Working Groups. The PMO established several working groups to address
            major areas of the PKI Program. The PKI working groups included the
            Certificate Policy Management Working Group, the Technical Working Group,
            the Business Working Group, and the Tactical Working Group. The PMO
            established the working groups to serve as focal points for DoD activities, to
            present issues and concerns on the DoD PKI Program implementation, and to
            resolve those issues and concerns.

            Periodic Status Briefs. The PMO sponsored status reviews where the various
            DoD Component PKI offices provided status updates on their PKI programs.
            The PMO developed a report template to facilitate status reporting during the
            reviews. The PMO used the template as a status-tracking tool to assess
            time-based performance relating to the DoD PKI Implementation Plan. Results
            were compared to a predetermined goal to measure progress. Additionally, the
            PMO published a monthly PKI electronic letter that provided a source of
            information for DoD Component PKI offices on PKI and PMO activities. The
            PMO also provided quarterly PKI status reviews to the DoD CIO.

            Unfunded Requirements. Through discussions with the PKI working groups,
            the PMO identified several unfunded requirements for the DoD PKI Program
            and briefed those requirements to the DoD CIO during periodic meetings. The
            unfunded requirements included operating PKI in a tactical environment,
            enabling applications to work with the PKI, security support for the Common
            Access Card (CAC), and middleware8 development for CAC readers.




8
    Middleware is a layer of software between the network and applications that provides services, such as,
    identification, authentication, authorization, directories, and security.

                                                       6
PMO Management of the DoD PKI Program
    The PMO had not managed the DoD PKI program as a DoD enterprise-wide
    IT investment, as advocated in the CCA. The PMO had not developed an IT
    investment plan that identified performance measures for the DoD PKI Program
    or adequately managed risks that could affect the PKI Program. Also, the PMO
    had not followed the intent of DoD acquisition policy by developing a process to
    document and manage cost, performance, and schedule parameters for PKI.
    The development of an IT investment plan and compliance with the intent of
    DoD acquisition policy and the CCA are discussed below.

    IT Investment Management. The DoD developed an investment guide,
    “Department of Defense Guide for Managing Information Technology (IT) as an
    Investment and Measuring Performance (DoD IT Guide),” February 10, 1997,
    which establishes an analytical framework for linking IT investment decisions to
    strategic objectives, business plans, and organizational mission performance.
    The DoD IT Guide recommends the use of a consistent set of objective,
    outcome-oriented performance measures to ensure that the right things are being
    measured and that problems are identified as early in the process as possible.
    Because the DoD IT Guide links recommended IT investment policies to
    requirements, such as the CCA and Government Performances and Result Act
    requires, performance measures must be quantifiable, measurable, and
    comparable against an established baseline. The PMO used time-based
    performance measures to determine the progress that DoD Components were
    making in their respective PKI programs. However, those measures did not
    assess operational performance for the overall DoD PKI Program. Although
    DoD will issue Class 3 certificates to more than 3.5 million DoD military,
    civilian, and contractor employees, the PMO had not established operational
    performance measures, such as number of registration authorities required to
    issue certificates versus number of registration authorities available to issue
    certificates. Consequently, DoD will be unable to effectively assess whether the
    PKI Program is meeting user needs.

    Risk Management Plan. When managing an IT Investment, the DoD IT Guide
    requires that risk assessments be performed to expose potential technical and
    managerial weaknesses. Specifically, risks must be assessed using a well-
    defined, documented process, or a risk management plan, to monitor, manage,
    and mitigate associated risks. The PMO identified and documented risks
    associated with the implementation of the PKI Program in the PKI Roadmap for
    DoD but did not identify the associated cost, performance, or schedule
    parameters and risks for the overall PKI Program. Further, the PMO had not
    developed a plan of action that included alternative solutions to mitigate the risks
    associated with PKI initiatives that are not controlled by the PMO. The cost,
    performance, and schedule of initiatives that are not controlled by the PMO
    would affect the implementation of the PKI Program. See Appendix D for a
    discussion on the PKI initiatives that are not controlled by the PMO.

    Compliance with DoD Acquisition Requirements. DoD Instruction 5000.1,
    “The Defense Acquisition System,” October 23, 2000, exists to secure and
                                         7
sustain the nation’s investments in the technologies, programs, and products
necessary to achieve the National Security Strategy and to support the Armed
Forces. The primary objective of Defense acquisition is to acquire quality
products that meet user needs and provide measurable improvements to mission
accomplishment and operational support, in a timely manner, and at a fair and
reasonable price. Consequently, decision-makers and program managers are
required to tailor acquisition strategies that:

       •   are consistent with common sense;

       •   conform to sound business management practices,

       •   comply with applicable laws, defense policies and regulations; and
       •   address the time-sensitive nature of the user’s requirements to fit the
           particular program.

As of August 2001, the PMO had not documented compliance with the intent of
DoD acquisition policy. DoD considers IT investments, such as the PKI
Program, to be special interest initiatives that are not subject to normal DoD
acquisition policy requirements. However, sound business practices and an
investment of $712 million for the PKI Program dictate a need for a process to
assess progress towards established goals, especially for cost, performance, and
schedule. Establishing parameters that define minimum acceptable value and
maximum allowable value would allow DoD to evaluate investments, such as
the PKI Program.

Compliance With the Clinger-Cohen Act (CCA). The CCA, which is
addressed in the DoD IT Guide, provides statutory requirements for managing
IT investments within the Federal Government. The CCA requires agencies to
design and implement a process to maximize the value and assess and manage
the risks of IT acquisitions. Further, the CCA requires agencies to devise a
process to obtain timely information on the progress of an investment in an
information system, including milestones for measuring that progress, on an
independently verifiable basis, in terms of cost, capability of meeting specified
requirements, timeliness, and quality.

As of August 2001, the PMO had not documented the compliance of the PKI
Program with the DoD implementation of the CCA. Specifically, the PMO, in
conjunction with the office of the DoD CIO, had not:

       •   Designed a process for maximizing the value and managing the risk
           of PKI;

       •   Prescribed performance measures that will show how well the PKI
           capability will support agency programs and mission requirements;
           and




                                     8
           •   Provided the means for external management to obtain timely
               information regarding PKI progress that included a system of
               milestones for measuring progress on a independently verifiable basis
               in terms of cost, timeliness, quality, and capabilities versus
               requirements.

Chief Information Officer Oversight and Management
  for the DoD PKI Program
    Congress enacted reform legislation to improve the methods by which Federal
    agencies select and manage IT resources. Those IT investments must provide
    measurable improvements in mission performance. To comply with
    congressional requirements, the Secretary of Defense delegated responsibility to
    the DoD CIO to provide oversight and management for all DoD IT investments.

    As of August 2001, the office of the DoD CIO had not provided oversight or
    advised the PKI PMO on acquisition requirements for the PKI Program, which
    was designated as a special interest initiative. The Deputy CIO memorandum,
    “Designation of Major Automated Information System Acquisition Programs/
    Special Interest Initiatives and Related Oversight Requirements,” May 5, 1999,
    provided general guidance for programs designated as special interest initiatives.
    Specifically, the memorandum required CIO personnel to:

           •   incorporate into regulatory guidance and oversight processes those
               requirements included in the CCA for IT investments; and to

           •   tailor management, oversight, and quarterly reporting requirements
               to ensure that warfighter requirements are met.

    However, CIO personnel did not follow that guidance and did not establish or
    tailor management, oversight, or reporting requirements for the PKI Program,
    as specified by the May 1999 memorandum. Specifically, DoD CIO oversight
    officials did not require the PMO to:

           •   submit an acquisition strategy for review and approval;

           •   coordinate and obtain consensus on acquisition requirements that
               added value to the PKI Program, especially for cost, performance,
               and schedule; and

           •   develop or submit acquisition milestone exit criteria, such as an
               information assurance strategy, analysis of alternative, or economic
               analysis.

    On March 30, 2001, the CIO updated the May 5, 1999, memorandum to
    identify those DoD information systems designated as major automated
    information systems subject to the requirements outlined in the Defense
    Acquisition System guidance. However, the March 2001 memorandum did not
    address oversight requirements for special interest initiatives. Instead, the
                                        9
    March 2001 memorandum stated that the CIO would issue separate guidance on
    major IT investments subject to CIO management oversight by the end of
    FY 2001. The memorandum also stated that the CIO would continue to oversee
    special interest initiatives that were under active oversight, where the CIO office
    reviewed acquisition documents, exit criteria, or evaluated the progress of the
    program. However, because the PKI Program was not under active acquisition
    oversight, the CIO did not have an effective means to minimize the risk for the
    DoD-wide IT investment or to ensure its compliance with defense acquisition
    and CCA requirements. The CIO must oversee the performance of IT
    programs, including the PKI Program, to evaluate the performance of those
    programs on the basis of the applicable performance measurements, and advise
    DoD management on whether to continue, modify, or terminate a program or
    project.



Conclusion
    The DoD PKI Program is an evolving program, which is dependent upon
    technological advancements and commercial products. Coordinated
    management and oversight are essential to the successful implementation of this
    DoD-wide investment. Although the PMO addressed the changing requirements
    of the PKI Program, additional challenges remain. The PMO needs to address
    cost, performance, and schedule parameters of and risks to PKI implementation
    and develop a plan of action that includes solutions to mitigate risks associated
    with PKI initiatives that are not controlled by the PMO. Otherwise, DoD will
    not be able to adequately assess cost, performance, and schedule risks to PKI
    Program implementation and use those assessments to determine whether the
    PKI Program is cost-effectively meeting security requirements and user needs.



Recommendations and Management Comments
    1. We recommend that the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) develop and implement
    oversight and management criteria for the DoD Public Key Infrastructure
    investment in accordance with DoD Directive 5000.1, “The Defense
    Acquisition System.”

    2. We recommend that the Director, DoD Public Key Infrastructure
    Program Management Office, review the “Department of Defense Guide for
    Managing Information Technology as an Investment and Measuring




                                        10
    Performance,” February 10, 1997, and develop an Information Technology
    Investment Management Plan for the DoD Public Key Infrastructure that
    addresses, at a minimum:

       a. Performance measures that show how the Public Key Infrastructure
    capability will support agency programs and mission requirements;

       b. A risk management plan that identifies cost, performance, and
    schedule parameters and risks for the overall Public Key Infrastructure
    Program; and provides alternative solutions to mitigate risks associated with
    Public Key initiatives that are not controlled by the Program Management
    Office; and

       c. Application of DoD acquisition policy requirements to the DoD Public
    Key Infrastructure Program, to include cost, performance, and schedule
    parameters.


Management Comments
     The Director, Information Assurance, provided a consolidated response for the
     Office of the Assistant Secretary of Defense (Command, Control,
     Communications and Intelligence) and the Director, DoD Public Key
     Infrastructure Program Management Office. Both offices fully concurred with
     the report finding and recommendations.

    The Office of the Assistant Secretary of Defense (Command, Control,
    Communications and Intelligence) also stated that a recommendation was made
    to designate the Public Key Infrastructure Program as a Major Automated
    Information System on November 7, 2001, with the Assistant Secretary of
    Defense (Command, Control, Communications and Intelligence) as the
    Milestone Decision Authority. Also, the acquisition process will be tailored, to
    the extent feasible, to take into account program maturity to enable speed and
    flexibility in program implementation.




                                       11
Appendix A. Audit Process

Scope
    Work Performed. We reviewed and evaluated guidance for the DoD PKI
    Program contained in policy memorandums, “DoD Public Key Infrastructure,”
    May 6, 1999 (canceled) and August 12, 2000; “Smart Card Adoption and
    Implementation,” November 10, 1999; and “PKI Operating Documents,”
    December 13, 1999. We also reviewed requirements for the CCA and DoD
    acquisition policy.

    We visited the DoD PKI Program Management Office to evaluate the
    management and implementation of the PKI program within DoD. We also
    visited the Services’ PKI program management offices to gain an understanding
    of the component-level and associated PKI beta tests to assess the status,
    progress, and implementation of the PKI programs.

    General Accounting Office High-Risk Area. The General Accounting Office
    lists information assurance as a high-risk area.



Methodology
    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from October 2000 through August 2001 in accordance with
    generally accepted government auditing standards. We did not use computer-
    processed data for this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.



Management Control Program Review
    We did not review the management control program related to the overall
    objective because DoD designated information assurance as a systemic
    management control weakness in the FY 2000 Annual Statement of Assurance.




                                      12
Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to information assurance issues.
    General Accounting Office reports can be accessed over the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed at
    http://www.dodig.osd.mil.


    General Accounting Office
    General Accounting Office Report No. 01-277, “Information Security:
    Advances and Remaining Challenges to Adoption of Public Key Infrastructure
    Technology,” February 2001

    General Accounting Office Report No. NSIAD-00-108, “Defense Management:
    Electronic Commerce Implementation Strategy Can Be Improved,” July 2000




                                     13
Appendix B. Public Key Encryption



                      Plain Text                                   Ciphertext
                      Message                                      Message




   Person A                          Person B’s Public Key




  Ciphertext                                   Plain Text
  Message                                      Message




                 Person B’s Private Key                             Person B




Person A writes a plain text message and encrypts it using person B’s public key.
Then Person A transmits the cipher text message to Person B. Person B decrypts the
cipher text message using the private key. The figure represents an example of how
the key pairs can work.




                                       14
Appendix C. Policy Memorandums Affecting the
            DoD Public Key Infrastructure
            Program
   May 6, 1999, Policy Memorandum. In Deputy Secretary of Defense policy
   memorandum, “Department of Defense (DoD) Public Key Infrastructure
   (PKI),” May 6, 1999, (superceded by policy memorandum, August 12, 2000),
   the Deputy Secretary directed that DoD take an aggressive approach in
   acquiring and using a PKI that met requirements for all IA services. The policy
   memorandum provided initial guidance, policy, and milestones for a common,
   integrated DoD PKI. The Deputy Secretary also encouraged the widespread use
   of PKE applications and provided the following specific guidelines for applying
   PKI services:

          •   selecting appropriate PKI certificate assurance levels

          •   deploying PKI registration capability for FORTEZZA-based PKI
              (near-term solution for Class 4) and the Class 3 (formerly Medium
              Assurance) PKI

          •   evolving certificates from Class 3 to Class 4 (now Release 3 and
              Release 4)

          •   issuing identity and encryption certificates

          •   establishing external certificate authorities

          •   establishing milestones for PKI for web servers and signed email

   November 10, 1999, Policy Memorandum. In Deputy Secretary of Defense
   policy memorandum, “Smart Card Adoption and Implementation,”
   November 10, 1999, the Deputy Secretary directed the use smart card
   technology and the CAC using the DEERS/RAPIDS infrastructure. In addition,
   the Deputy Secretary authorized that PKI guidance be modified to incorporate
   and accommodate the use of the CAC. The Deputy Secretary also directed that
   the CAC be used as a standard DoD identification card, building access card,
   and PKI certificate token carrier. Further, the Deputy Secretary directed that
   the CAC be issued to all active duty military personnel, selected Reserve
   personnel, DoD civilian employees, and eligible contractor personnel. The
   Deputy Secretary required an initial implementation of the CAC by
   December 30, 2000.

   December 13, 1999, Policy Memorandum. In ASD(C3I) policy memorandum,
   “Public Key Infrastructure (PKI) Operating Documents,” December 13, 1999,
   the ASD(C3I) required the DoD PKI PMO to update the operating guidance,
   specifically, the DoD PKI Roadmap and the DoD X.509 Certificate Policy, to


                                        15
reflect changes in program direction or strategy. The ASD(C3I) also required
the PMO to coordinate the Roadmap with final decisions concerning the CAC
and the Global Information Grid programs.

August 12, 2000, Policy Memorandum. In ASD(C3I) policy memorandum,
“Department of Defense (DoD) Public Key Infrastructure (PKI),” August 12,
2000, (canceled policy memorandum dated May 6, 1999), the ASD(C3I) updated
the DoD guidelines and policies for the development and implementation of a
DoD-wide PKI and aligned PKI activities and milestones with the CAC. The
ASD(C3I) also:

       •   mandated CAC as the primary token platform for PKI certificates;

       •   revised requirements for registration capability to December 2001;

       •   designated DEERS/RAPIDS as the primary registration platform and
           required the integration of DEERS/RAPIDS with the PKI capability;

       •   required DEERS/RAPIDS initial operational capability by December
           2000; and

       •   required issuance of Class 3 certificates to DoD users by
           October 2002.

Evolution of the DoD PKI Program Based on Policy Memorandums. Based
on the May 6, 1999, policy memorandum, the Deputy Secretary of Defense
directed DoD to deploy registration capability based on two PKI levels:

       •   the FORTEZZA-based PKI (for high-level assurance) and

       •   the Class 3 PKI (for medium level assurance).

Both infrastructures will use software-based tokens to protect and transport
private keys. Moreover, every DoD organization was required to have the
capability to issue Class 3 certificates by October 2000, and required the
issuance of Class 3 certificates to all DoD users by October 2001.

Based on the November 10, 1999, policy memorandum, the Deputy Secretary of
Defense designated the CAC as the token for PKI because smart cards were
already being used in various operational and business applications as an
authentication token for certificates and as a private key for digital signature and
access authentication. Consequently, the memorandum changed the requirement
to protect and transport private keys from a software-based token to a hardware-
based token, the CAC. In addition, the Deputy Secretary required an initial
implementation of the CAC by December 30, 2000.

The August 12, 2000, policy memorandum extended the date for DoD
Component registration capability from October 2000 to December 2001. Also,
the date for issuance of Class 3 certificates for DoD users was changed from
October 2001 to October 2002.

                                    16
Appendix D. Public Key Infrastructure
            Initiatives That Are Not Controlled
            by the Program Management Office
   Registration Platform for PKI. Deputy Secretary of Defense policy
   memorandum, “Smart Card Adoption and Implementation,” November 10,
   1999, directed the use of smart card technology, the CAC, and the
   DEERS/RAPIDS infrastructure for the PKI Program. Based on the
   memorandum, ASD(C3I) designated the DEERS/RAPIDS as the primary
   registration platform to issue PKI certificates for Class 3 and, subsequently,
   Class 4 certificates, on the CAC. Additionally, the ASD(C3I) required that all
   users have Class 3 certificates by October 2002. To support the CAC
   registration requirements, the Defense Manpower Data Center, which is the
   system owner, began security and technical upgrades of DEERS/RAPIDS
   workstations. As of June 2001, the DEERS/RAPIDS upgrades were behind
   schedule, potentially delaying the proposed rollout milestone date and the
   initiation of CAC issuance. Based on discussions with Service PKI offices, the
   milestone slippage threatens their ability to meet the October 2002 deadline to
   issue Class 3 certificates on the CAC. However, a plan of action providing
   alternatives, such as issuing software tokens until the registration workstations
   are ready or issuing tokens based on validated need, could provide temporary
   solutions for DoD if DEERS/RAPIDS is not ready.

   Public Key-Enabled (PKE) Applications Progress. For the PKI to operate,
   DoD has to prepare, or enable, applications to work with the infrastructure.
   Otherwise, DoD could have an expensive infrastructure that has no practical
   use. A PKE application can accept or process certificates to support functions,
   such as a digital signatures or data encryption, that provide security services.
   The PKE applications work with the PKI to access public key certificates,
   revocation information, and general information in public directories or
   repositories. DoD Components are responsible for paying costs associated with
   enabling applications for PKI because the PKE costs are not included in the
   $712 million budgeted for PKI. Although the PMO is not responsible for
   enabling applications, the PMO is developing the tools and capabilities that will
   be used to support the enabling of applications. A plan of action that addressed
   PKE application issues and shared lessons learned on applications could help
   DoD Components understand PKI policies, use, and interfaces and could help
   minimize interoperability problems that could result from enabling applications.

   Middleware and Card Reader Requirements. The DoD PKI will use card
   readers to download information from hardware tokens (the CACs).
   Middleware enables the readers and the tokens to communicate with the
   computer software. The Smart Card Senior Coordination Group developed
   technical specifications for middleware and card readers, and a number of
   vendors have met those specifications. Because DoD Components will be
   responsible for purchasing their own card readers and middleware, it is unlikely

                                       17
that all Components would purchase the same type of card reader.
Consequently, the use of different card readers could result in incompatibility
among the multiple card reader systems. Additionally, different operating
systems require different middleware, further increasing the chance of
incompatibility. The PMO realized that complete compatibility between all card
readers and middleware within the DoD would not be possible. However, the
PMO had not devised a plan for minimizing incompatibility and maximizing use
of middleware and card readers among DoD Components, such as evaluating
readers and developing a list of vendors that provide compatible card readers.

Directories. Directories are used as a repository for the distribution of the
certificates and certificate revocation lists. Specifically, directories will be used
to identify and authenticate certificates of users and entities. The Defense
Information Systems Agency will establish the Global Directory Services to
meet this requirement. Although the directories were scheduled to be fully
operational by December 2004, the PKI PMO office will work with the Defense
Information Systems Agency to activate the PKI function of the directories
earlier than that date. However, the control of the directories is external to the
PMO and must be considered as an increased external risk that could affect the
successful implementation of the DoD PKI Program. Because of the increased
risk, the PMO may need to identify an alternate plan of action to identify and
authenticate certificates if the directory function is not available prior to PKI
implementation.

Common Access Card Security Requirements. The X.509 Certificate Policy,
December 13, 1999, identified the technical specifications and security
capabilities necessary for the hardware token for the CAC. The National
Institute of Standards and Technology published a list of compliant
cryptographic modules that met the minimum requirements defined in the
Certificate Policy. Both the DoD Certificate Policy and the National Institute of
Standards and Technology identified vendors that produced compliant
cryptographic modules; however, the Navy selected a CAC that did not meet the
established technical and security requirements of the Certificate Policy and
National Institute of Standards and Technology. According to the PKI PMO,
the Navy chose the CAC because the functions that DoD Components required
were not available with the other CACs. Although the PMO stated that the
CAC should be compliant by July 2001, the PMO had not developed a plan
showing an alternate course of action if the CAC did not meet security
requirements within the planned milestone.

Key Recovery Policies and Procedures. The PKI concept proposed the use of
encryption certificates to enable the user to encrypt and decrypt e-mail messages
and files. The public key of the certificate will be used to encrypt the data and
the private key will be used to decrypt the data (or vice versa). If the private
key is unattainable due to loss, termination, or theft, the encrypted data cannot
be decrypted, which could lead to information loss. To mitigate information
loss, DoD needs a comprehensive key recovery policy that addresses the threat,
risk, and vulnerabilities of private key loss. The policy should also provide



                                     18
           technical solutions for recovery of DoD encrypted information, or an alternate
           plan of action that addresses information loss because of loss, theft, or
           unavailability of keys.

           Unfunded Requirements. The PMO had not developed a plan to address DoD
           PKI Program requirements that could affect the successful implementation of the
           PKI program. Specifically, the DoD Components identified requirements that
           were not included in their budgets for FYs 2002-2005 but the requirements were
           needed for the PKI. Unfunded requirements included:

                   •   Two levels of assurance operating concurrently (Class 3 and
                       Class 4)∗. Although Class 4 will replace Class 3, DoD will have an
                       overlap of Class 3 and Class 4 with the associated costs.

                   •   PKE applications. Although PKE applications are required for PKI,
                       DoD Components must enable applications at their own cost. The
                       amount budgeted for PKI is for infrastructure only.

                   •   Security support for the CAC. Although the CAC is the designated
                       token for certificates for DoD, costs for security support
                       requirements associated with the CAC have not been funded.

                   •   Middleware. The middleware and card readers are needed to work
                       with the CAC. DoD Components must pay for their own
                       middleware and card readers.

                   •   PKI operation in a tactical environment. To support the warfighter,
                       PKI must be portable. Costs associated with a portable PKI have not
                       been funded.

           The PMO briefed the unfunded requirements to the DoD CIO. However, a plan
           of action identifying the costs of the unfunded requirements, showing the overall
           effect that the funding shortfalls could have on the DoD PKI Program, and
           suggesting alternate solutions to address the funding shortfalls is needed for the
           PKI Program.




∗
    Upon the completion of testing, Class 3 and Class 4 will be renamed Release 3 and Release 4. For
    purposes of this report, we are using their current naming conventions.

                                                    19
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Deputy Assistant Secretary of Defense, Deputy Chief Information Officer
  Deputy Assistant Secretary of Defense, Security and Information Operations
      Director, Infrastructure and Information Assurance
         Director, Defense-Wide Information Assurance Program
         Director, Public Key Infrastructure Program Management Office

Joint Staff
Director, Joint Staff
  Chief Information Officer, Joint Staff

Department of the Army
Director of Information Systems for Command, Control, Communications and
  Computers
Chief Information Officer, Department of the Army
Auditor General, Department of the Army

Department of the Navy
Director, Space, Information Warfare, Command and Control
Director, Command, Control, Communications, and Computers, Marine Corps
   Director, Marine Corps Network Operations Center
Commander, Marine Corps Systems Command
Chief Information Officer, Department of the Navy
Auditor General, Department of the Navy
Naval Inspector General
Inspector General, Marine Corps




                                           20
Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Deputy Chief of Staff, Communications and Information
Commander, Air Force Materiel Command
  Commander, Cryptologic Systems Group, Electronic Systems Center
Chief Information Officer, Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Information Systems Agency
  Chief Information Officer, Defense Information Systems Agency
Director, National Security Agency
  Inspector General, National Security Agency

Non-Defense Federal Organizations
Office of Management and Budget
  Office of Information and Regulatory Affairs

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         21
Office of the Assistant Secretary of Defense
(Command, Control, Communications, and
Intelligence) Comments




                   23
Final Report
 Reference




               24
Audit Team Members

The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.


Mary L. Ugone
Wanda A. Scott
Dianna J. Pearson
Donna Roberts
Richard B. Vasquez
Cristina Maria H. Giusti
Timothy A. Cole
Jamal E. Hall
Pamela Newkirk
Jacqueline Pugh
